<html>
<title> - PROVIDING MORE STUDENTS A PATHWAY TO SUCCESS BY STRENGTHENING CAREER AND TECHNICAL EDUCATION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]









                  PROVIDING MORE STUDENTS A PATHWAY TO
                  SUCCESS BY STRENGTHENING CAREER AND
                          TECHNICAL EDUCATION

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                  ELEMENTARY, AND SECONDARY EDUCATION

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 28, 2017

                               __________

                            Serial No. 115-7

                               __________

  Printed for the use of the Committee on Education and the Workforce



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-358 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

               VIRGINIA FOXX, North Carolina, Chairwoman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Duncan Hunter, California                Virginia
David P. Roe, Tennessee              Ranking Member
Glenn ``GT'' Thompson, Pennsylvania  Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Brett Guthrie, Kentucky              Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Lou Barletta, Pennsylvania           Jared Polis, Colorado
Luke Messer, Indiana                 Gregorio Kilili Camacho Sablan,
Bradley Byrne, Alabama                 Northern Mariana Islands
David Brat, Virginia                 Frederica S. Wilson, Florida
Glenn Grothman, Wisconsin            Suzanne Bonamici, Oregon
Steve Russell, Oklahoma              Mark Takano, California
Elise Stefanik, New York             Alma S. Adams, North Carolina
Rick W. Allen, Georgia               Mark DeSaulnier, California
Jason Lewis, Minnesota               Donald Norcross, New Jersey
Francis Rooney, Florida              Lisa Blunt Rochester, Delaware
Paul Mitchell, Michigan              Raja Krishnamoorthi, Illinois
Tom Garrett, Jr., Virginia           Carol Shea-Porter, New Hampshire
Lloyd K. Smucker, Pennsylvania       Adriano Espaillat, New York
A. Drew Ferguson, IV, Georgia

                      Brandon Renz, Staff Director
                 Denise Forte, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EARLY CHILDHOOD, ELEMENTARY, AND SECONDARY EDUCATION

                     TODD ROKITA, Indiana, Chairman

Duncan Hunter, California            Jared Polis, Colorado
David P. Roe, Tennessee                Ranking Member
Glenn ``GT'' Thompson, Pennsylvania  Raul M. Grijalva, Arizona
Luke Messer, Indiana                 Marcia L. Fudge, Ohio
David Brat, Virginia                 Suzanne Bonamici, Oregon
Tom Garrett, Jr., Virginia           Susan A. Davis, California
                                     Frederica S. Wilson, Florida
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 28, 2017................................     1

Statement of Members:
    Polis, Hon. Jared, Ranking Member, Subcommittee on Early 
      Childhood, Elementary, and Secondary Education.............     4
        Prepared statement of....................................     6
    Rokita, Hon. Todd, Chairman, Subcommittee on Early Childhood, 
      Elementary, and Secondary Education........................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Global, Ms. Janet, Director of Career and Technical 
      Education, Canyons School District.........................    14
        Prepared statement of....................................    27
    Johnson, Mr. Glenn E., M.A., Manufacturing Workforce 
      Development Leader, BASF Corporation.......................     8
        Prepared statement of....................................    16
    Lufkin, Ms. Mimi, Chief Executive Officer, National Alliance 
      for Partnerships in Equity (NAPE)..........................    21
        Prepared statement of....................................    24
    Rowe, Mr. Mike, CEO, Mikeroweworks Foundation................    34
        Prepared statement of....................................    37

Additional Submissions:
    Barletta, Hon. Lou, a Representative in Congress from the 
      State of Pennsylvania:
        Letter dated March 21, 2017, from International Code 
          Council................................................    60
    Mr. Johnson:
        Chart: Workforce Development Pipeline....................    63
    Mr. Polis:
         The CTE Equation in Tennessee...........................    57
    Mr. Rowe:
        CompTIA: Change in TECH Act..............................    65
    Chairman Rokita:
        Prepared statement of....................................    69
        Article: How Congress can help millions of Americans 
          achieve career success.................................    75
    Thompson, Hon. Glenn ``GT'', a Representative in Congress 
      from the State of Tennessee:
        Letter dated February 24, 2017, from Data Quality 
          Campaign (DQC).........................................    79

 
  PROVIDING MORE STUDENTS A PATHWAY TO SUCCESS BY STRENGTHENING CAREER
                          AND TECHNICAL EDUCATION

                              ----------                              


                       Tuesday, February 28, 2017

                       House of Representatives,

                    Subcommittee on Early Childhood,

                  Elementary, and Secondary Education,

               Committee on Education and the Workforce,

                            Washington, D.C.

                              ----------                              

    The subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Todd Rokita 
[chairman of the subcommittee] presiding.
    Present: Representatives Rokita, Roe, Thompson, Messer, 
Brat, Garrett, Polis, Bonamici, and Davis.
    Also Present: Representatives Foxx, Scott of Virginia, and 
Krishnamoorthi.
    Staff Present: Courtney Butcher, Director of Member 
Services and Coalitions; Amy Raaf Jones, Director of Education 
and Human Resources Policy; Nancy Locke, Chief Clerk; Dominique 
McKay, Deputy Press Secretary; James Mullen, Director of 
Information Technology; Krisann Pearce, General Counsel; James 
Redstone, Professional Staff Member; Alex Ricci, Legislative 
Assistant; Mandy Schaumburg, Education Deputy Director and 
Senior Counsel; Brad Thomas, Senior Education Policy Advisor; 
Tylease Alli, Minority Clerk/Intern and Fellow Coordinator; 
Jacque Chevalier, Minority Deputy Education Policy Director; 
Denise Forte, Minority Staff Director; Mishawn Freeman, 
Minority Staff Assistant; Eunice Ikene, Minority Labor Policy 
Associate; Alexander Payne, Minority Education Policy Advisor; 
and Elizabeth Watson, Minority Director of Labor Policy.
    Chairman Rokita. A quorum being present, the Subcommittee 
on Early Childhood, Elementary, and Secondary Education will 
come to order.
    Good morning, everyone, and welcome to today's hearing. 
We're here to discuss strengthening career and technical 
education and the need to reform, improve, and modernize 
current law so that more students can experience the power of 
this important education.
    For decades, career and technical education has helped 
individuals compete in the workforce and build fulfilling 
careers. Today, State and local programs across the country are 
working to prepare students in high school and at community 
colleges for jobs in a variety of fields.
    Now, these programs serve more than 11 million students, 
helping them receive knowledge, skills, and real world 
experience in fields ranging from health care and law 
enforcement to information technology and steel manufacturing.
    Through the Carl D. Perkins Career and Technical Education 
Act, the Federal Government provides support to these State and 
local programs. It's a worthwhile investment in growing a 
skilled workforce, preparing students for postsecondary 
education or the workplace, and helping hardworking 
individuals, particularly younger individuals, achieve their 
goals in life.
    CTE helped Paul Tse from Maryland, for example, go from a 
struggling high school student to the project manager for a 
mechanical contract company. Jasmine Morgan from Georgia 
realized her dream of becoming a sports marketing specialist 
through her experience with CTE. Alex Wolff embarked on a 
successful career in electrical engineering after participating 
in a CTE program in his home State of California.
    Now, these are just a few examples of the power CTE has to 
help students achieve their dreams and reach their full 
potential. However, changes to Federal law need to be made, and 
that's what we're here to discuss today, updating career and 
technical education policies so that more students can enjoy 
the success that Paul, Jasmine, and Alex have seen.
    The Perkins Act hasn't been updated in more than a decade. 
I don't have to tell you that much has changed in the workplace 
and our economy since then. Technology has advanced, consumer 
needs have shifted, and the country has struggled through a 
slow and tough economic recovery.
    By strengthening CTE policies, we have an opportunity to 
ensure the law reflects the current realities facing students, 
workers, and employers today. It's an important opportunity, 
one that allows us not to only help more Americans seize 
opportunities in the workforce, but help them excel in the 
high-skilled jobs that exist today.
    In recent years, we've heard more and more about the quote, 
unquote, ``skills gap,'' the idea that there are more job 
opportunities in this country than there are workers with the 
knowledge and skills necessary to fill those jobs. You heard me 
correctly, even with too many Americans still unemployed, 
millions of job openings exist. The sad truth is that many 
students aren't prepared for these jobs.
    This need for skilled labor exists in a number of critical 
industries. In manufacturing alone, 6 out of 10 positions go 
unfilled because of the skills gap and 84 percent of 
manufacturers agree there is a talent shortage. What's worse is 
that if current projections continue, more than 6 million jobs 
will remain unfilled by 2020.
    Something needs to change, and improving career and 
technical education is a great way to help bring about that 
change. Unfortunately, we are starting from scratch. Last year, 
Congress came very close to passing a bipartisan bill that 
would deliver much-needed CTE reforms. Through a bipartisan 
effort led by Representatives Glenn Thompson and Katherine 
Clark, this committee unanimously approved legislation to 
strengthen CTE. So it's worth pausing and repeating that: 
unanimously approved legislation, this committee.
    The important reforms in that legislation would empower 
State and local leaders to respond to changing education and 
economic needs. They would support innovative learning 
opportunities for students and help build better community 
partnerships, including stronger engagement with local 
employers. They would also improve accountability to ensure CTE 
programs are delivering real results and hardworking taxpayers' 
money is being well spent.
    That legislation went on to pass the House with 
overwhelming bipartisan support by a vote of 405 to 5. It also 
enjoyed broad support outside of Congress from groups 
representing students, schools, employers, and those in the 
civil rights community.
    These commonsense bipartisan reforms provide us with a 
strong foundation to continue working to improve the law. 
Through hearings like this one and the legislative work ahead, 
we have an opportunity to help fill jobs, empower more 
individuals to achieve their goals, and provide more students a 
pathway to success.
    I'd like to thank our witnesses for joining us here today 
and look forward to hearing their stories and their experiences 
about the power of CTE and what we can do to make it better. I 
know Mike Rowe has been working for years to elevate CTE, as 
well as the kinds of ``dirty jobs'' of the men and women that 
are employed in those fields. His efforts have helped shine a 
light on countless Americans whose hard work and quiet 
determination help move this country forward.
    We appreciate all that you've done to support this 
country's students and workers. We look forward to your 
testimony.
    So with that, I'll now recognize the ranking member, 
Congressman Polis, for his opening remarks.
    [The statement of Chairman Rokita follows:]

Prepared Statement of Hon. Todd Rokita, Chairman, Subcommittee on Early 
             Childhood, Elementary, and Secondary Education

    For decades, career and technical education has helped individuals 
compete in the workforce and build fulfilling careers. Today, state and 
local programs across the country are working to prepare students in 
high school and at community colleges for jobs in a variety of fields. 
These programs serve more than 11 million students--helping them 
receive knowledge, skills, and real-world experience in fields ranging 
from health care and law enforcement to information technology and 
manufacturing.
    Through the Carl D. Perkins Career and Technical Education Act, the 
federal government provides support to these state and local programs. 
It's a worthwhile investment in growing a skilled workforce, preparing 
students for postsecondary education or the workplace, and helping 
hardworking individuals--particularly younger individuals--achieve 
their goals in life.
    CTE helped Paul Tse from Maryland go from a struggling high school 
student to the project manager for a mechanical contract company. 
Jasmine Morgan from Georgia realized her dream of becoming a sports 
marketing specialist through her experience with CTE. Alex Wolff 
embarked on a successful career in electrical engineering after 
participating in a CTE program in his home state of California.
    These are just a few examples of the power CTE has to help students 
achieve their dreams and reach their full potential. However, changes 
to federal law need to be made, and that's what we are here to discuss 
today--updating career and technical education policies so more 
students can enjoy success like Paul, Jasmine, and Alex.
    The Perkins Act hasn't been updated in more than a decade. I don't 
have to tell you that much has changed in the workplace and our economy 
since then. Technology has advanced, consumer needs have shifted, and 
the country has struggled through a slow, tough economic recovery.
    By strengthening CTE policies, we have an opportunity to ensure the 
law reflects the current realities facing students, workers, and 
employers today. It's an important opportunity--one that allows us not 
only to help more Americans seize opportunities in the workforce but to 
help them excel in the high-skilled jobs that exist today.
    In recent years, we've heard more and more about the ``skills 
gap''--the idea that there are more job opportunities in this country 
than there are workers with the knowledge and skills necessary to fill 
them. You heard me correctly. Even with too many Americans still 
unemployed, millions of job openings exist. The sad truth is we simply 
haven't prepared students for them.
    This need for skilled labor exists in a number of critical 
industries. In manufacturing alone, six out of 10 positions go unfilled 
because of the skills gap, and 84 percent of manufacturers agree there 
is a talent shortage. What's worse is that if current projections 
continue, more than 6 million jobs will remain unfilled by the year 
2020.
    Something needs to change, and improving career and technical 
education is a great way to help bring about that change. Fortunately, 
we aren't starting from scratch.
    Last year, Congress came very close to passing a bipartisan bill 
that would deliver much-needed CTE reforms. Through a bipartisan effort 
led by Representatives Glenn Thompson and Katherine Clark, this 
committee unanimously approved legislation to strengthen CTE. Let me 
pause to repeat that: unanimously approved legislation.
    The important reforms in that legislation would empower state and 
local leaders to respond to changing education and economic needs. They 
would support innovative learning opportunities for students and help 
build better community partnerships, including stronger engagement with 
local employers. They would also improve accountability to ensure CTE 
programs are delivering real results and hardworking taxpayer dollars 
are being well spent.
    That legislation went on to pass the House with overwhelming 
bipartisan support by a vote of 405 to 5. It also enjoyed broad support 
outside of Congress from groups representing students, schools, 
employers, and those in the civil rights community.
    These commonsense, bipartisan reforms provide us with a strong 
foundation to continue working to improve the law. Through hearings 
like this one and the legislative work ahead, we have an opportunity to 
help fill jobs, empower more individuals to achieve their goals, and 
provide more students a pathway to success.
    I'd like to thank our witnesses for joining us today and look 
forward to hearing their stories and experiences about the power of 
CTE, and what we can do to make it better. I know Mike Rowe has been 
working for years to elevate CTE, as well as all kinds of ``dirty 
jobs'' and the men and women employed in these fields. His efforts have 
helped shine a light on countless Americans whose hard work and quiet 
determination help move this great country forward. We appreciate all 
that you've done to support this country's students and workers, and we 
look forward to your testimony.
                                 ______
                                 
    Mr. Polis. Good morning, and thank you, Chairman Rokita.
    Today's hearing is very important because we're going to be 
examining the very important role in an evolving 21st century 
economy of career and technical education programs. Career and 
technical education programs help prepare our country's 
students, including those who are coming from nontraditional 
pathways, for either success in college or career. And many of 
the programs across our school districts or in partnership with 
our school districts are funded under the Carl D. Perkins 
Career and Technical Education Improvement Act of 2006, which 
the committee is hoping to reauthorize this session.
    According to Georgetown University's Center on Education 
and the Workforce, in the next 5 years 65 percent of jobs in 
our economy in our country will require training beyond high 
school. In my own State of Colorado, career and technical 
education is really receiving a new facelift to reinvent it for 
the 21st century. Last year, our State created a pilot program 
where school districts receive $1,000 for students who complete 
a credential in a high-demand industry or finished a workplace 
training program or complete an AP computer science course.
    This past fall, I visited the new P-TECH high school in 
Longmont, Colorado, that serves many students in my district. 
P-TECH, which also is known as Pathways in Technology Early 
College, allows all students to earn their high school diploma 
and an associate's degrees in a STEM field. P-TECH is a 
partnership between the school district, Front Range Community 
College, and IBM. Other P-TECH partnerships include other 
private sector companies that are willing to provide 
educational internships for the students and educational 
support. And also the cooperation of a local community college 
is very important.
    In addition to supporting P-TECH -- and there was language 
in last year's reauthorization that we hope to include in this 
year's as well, supportive of the P-TECH concept -- Perkins 
also provides an excellent opportunity to support dual and 
concurrent enrollment programs, which are growing across the 
country. Dual enrollment, frankly, is one of the most 
successful educational programs that I've seen, in my State and 
nationally. Every day, dual and concurrent enrollment are 
breaking down barriers to accessing college for many low-income 
and first-generation students.
    Students that participate in dual and concurrent enrollment 
programs are less likely to need remediation in college. They 
are 23 percent more likely to continue into postsecondary 
education after high school.
    It's also very cost effective for students and their 
families. Last year, I visited Colorado Early College High 
School in Fort Collins. For students at Colorado Early College 
High School, they graduate high school with an associate's 
degree, often in 4 years. It can take 5 or 6 years as well, but 
the vast majority of the students complete high school and an 
associate's degree in 4 years.
    These graduates are not only able to receive college credit 
and reduce the cost of college and cut the cost of a 4-year 
degree in half, but also receive the ability to have a 
deployable talent in the marketplace.
    Career and technical education is critical for fulfilling 
high-need jobs. This last fall, I met with representatives from 
the Northern Colorado Labor Council. They shared how there's 
openings for apprenticeships in northern Colorado which pay a 
good wage and lead to a good job, but they don't have enough 
qualified people to fill those openings. This really gets to 
the heart of why we need strong career-readiness programs.
    In many places, there are good-paying jobs available for 
people who have the right skills. The Federal Government has an 
important role to play in partnering with school districts to 
ensure students have the skills to fill good-paying jobs.
    Unfortunately, after the harmful sequestration cuts, public 
funding for career and technical education is at historic lows. 
It's clear that we should not continue to cut funding for 
critical programs like career and technical education, programs 
that actually can engage students with an integrated and 
practical and applied curriculum of core academic content and 
real world, work-based relevance.
    We need to support high-quality career and technical 
education programs. And for many years, the Perkins Act has 
supported the development of career and technical education 
programs that cultivate in-demand skills among secondary and 
postsecondary students.
    Reauthorization of the Carl D. Perkins Career and Technical 
Education Act gives this committee the opportunity to ensure 
that these programs are high quality, emphasize equity, align 
with academic and labor market demands to help grow our 
economy, and provide opportunities for all students, especially 
those who are historically underserved, to receive credentials, 
lead to high-skills, high-wage, in-demand career opportunities 
in the 21st century.
    We also need to ensure that any reauthorization is 
bipartisan, comes with strong accountability, transparency, and 
quality indicators, to make sure that a diverse population of 
students is served, and that every student is served well. We 
can achieve these goals through increased collaboration and 
flexibility at the State and local level while maintaining the 
authority federally to make sure that the legislation meets its 
goals.
    I look forward to hearing from our distinguished panel of 
witnesses today and discussing how we can best equip our 
Nation's students with the skills that they need to succeed in 
our rapidly evolving economy.
    Thank you, and I yield back the balance of my time.
    [The statement of Mr. Polis follows:]

Prepared Statement of Hon. Jared Polis, Ranking Member, Subcommittee on 
          Early Childhood, Elementary, and Secondary Education

    Good morning, and thank you, Chairman Rokita.
    Today's hearing will examine the critical role of career and 
technical education (CTE) programs in preparing our nation's students, 
including those who are entering or coming from nontraditional 
pathways, for success in college and career. Many of these programs are 
funded under the Carl D. Perkins Career and Technical Education 
Improvement Act of 2006.
    According to Georgetown University's Center on Education and the 
Workforce, in the next five years, 65 percent of all jobs in the United 
States' economy will require training beyond high school. In my home 
state of Colorado, career and technical education is receiving a 
renewed focus. Last year, Colorado created a pilot program where school 
districts receive $1,000 for each student who completes a credential in 
a high-demand industry, finishes a workplace training program, or 
completes an AP Computer Science course.
    This past fall, I visited the new P-TECH school in Longmont, 
Colorado that serves many students in my district. P-TECH, also known 
as Pathways in Technology Early College allows students to earn their 
high school diploma and an associate's degree in a STEM field in six 
years. P-TECH is a partnership between the school district, Front Range 
Community College, and IBM, and gives students the opportunity to get 
on-the-job training while they're getting their degrees.
    In addition to P-TECH, Perkins CTE provides an excellent 
opportunity to lift up and support dual and concurrent enrollment. Dual 
enrollment is one of the most successful education programs in 
Colorado, and it's breaking down barriers to accessing college for many 
low-income and first generation students. Students in Colorado that 
participate in dual and concurrent enrollment are less likely to need 
remedial courses in college, and they are 23 percent more likely to 
continue into postsecondary education after high school. It's also an 
effective cost-saving strategy for students. Last year, I visited 
Colorado Early College High School in Fort Collins, or CEC. For 
students at CEC, they graduate high school with an associate's degree, 
sometimes in four years, and sometimes in five or six. Those graduates 
are not only able to get college experience, but they've effectively 
cut their cost for a four-year degree in half.
    CTE is also critical for filling high-needs jobs. Just last fall, I 
met with representatives from the Northern Colorado Labor Council. They 
shared how there are openings for apprenticeships in Northern Colorado, 
which pay a fair wage and can lead to a job, but they don't have anyone 
to fill the openings. This gets to the heart of why we need strong 
career readiness programs. In many places there are good-paying jobs 
available. The federal government has a role to play in helping ensure 
students are trained to fill them.
    Unfortunately, after harmful sequestration cuts, public funding for 
CTE is at historic lows. It is clear that we should not continue to cut 
funding for critical programs, like CTE, that engage students with an 
integrated curriculum of core academic content and real-world, work-
based relevance.
    Instead, we must support high-quality CTE programs. For many years, 
the Perkins Act has supported the development of CTE programs that 
cultivate in-demand skills among secondary and postsecondary students.
    Reauthorization of the Carl D. Perkins Career and Technical 
Education Act presents this Committee with an opportunity to ensure 
that CTE programs are of high quality, emphasize equity, align with 
academic and labor market demands, and provide opportunities for all 
students - especially those historically underserved - to receive 
credentials that lead to high-skill, high-wage, in-demand career 
opportunities. We also need to ensure that any reauthorization is 
bipartisan, and comes with strong accountability and quality indicators 
that ensure not only that a diverse population of students are being 
served, but also that every student is being served well. We can 
achieve these goals through increased collaboration and flexibility at 
the state and local level, while maintaining secretarial authority to 
regulate and enforce the legislation at the federal level.
    I look forward to hearing from our distinguished panel of witnesses 
and discussing how we can equip our nation's students with the skills 
they need to succeed in a rapidly evolving 21st century economy.
    Thank you, and I yield back my time.
                                 ______
                                 
    Chairman Rokita. I thank the gentleman.
    Pursuant to committee rule 7(c), all members will be 
permitted to submit written statements, which will be included 
in the permanent hearing record. And without objection, the 
hearing record will remain open for 14 days to allow such 
statements and other extraneous material referenced during the 
hearing to be submitted for the official hearing record.
    I will now turn to the introduction of our distinguished 
witnesses.
    First, we have Mr. Glenn Johnson. He is a workforce 
development leader for BASF, where he works to develop 
partnerships with educational agencies and postsecondary 
partners.
    Welcome.
    Ms. Janet Goble is the director of career and technical 
education for Canyons School District in Sandy, Utah, where she 
oversees CTE course offerings, business partnerships, and work-
based learning student experiences.
    Welcome.
    Ms. Mimi Lufkin is the executive director for the National 
Alliance for Partnerships in Equity, where she conducts 
professional development activities and provides technical 
assistance to State and local education agencies focused on 
best practices for serving special population students.
    Ms. Lufkin, welcome.
    And finally, Mr. Mike Rowe, best known for the Discovery 
Channel show ``Dirty Jobs,'' now runs the mikeroweWORKS 
Foundation, which awards scholarships to students pursuing a 
career in the skilled trades.
    Mr. Rowe, welcome. Thank you for being here.
    I will now ask our witnesses to raise your right hand.
    [Witnesses sworn.]
    Chairman Rokita. Let the record reflect that all witnesses 
answered in the affirmative.
    Before I recognize you to provide your testimony, let me 
briefly explain our lighting system, which is reminder for us 
up here as much as it is for you. You each have 5 minutes, of 
course, to present your testimony. When you begin, the light 
will be green, and then when there is 1 minute left, it will be 
yellow, and when it's red, it's time to stop. So please do that 
so we can keep on time. I'd appreciate it.
    Members then will each have 5 minutes to ask their 
questions, and the red light applies to them just as equally.
    So with that, I'd like to recognize Mr. Johnson for 5 
minutes for your testimony.

 TESTIMONY OF GLENN E. JOHNSON, M.A., MANUFACTURING WORKFORCE 
              DEVELOPMENT LEADER, BASF CORPORATION

    Mr. Johnson. Thank you very much for this opportunity to 
talk about CTE and how BASF has become very involved and very 
engaged in this type of work and activity.
    I'd like to also mention that I began my own career as 
very, very near the bottom, starting as a process operator and 
working my way through the technical operations of 
manufacturing and technical careers. So I've lived the life 
that I advocate for these young people -- and even retooling 
adults -- to get involved with and very passionate about it.
    BASF has 154 locations in 29 States. Eighty-one of those 
are production facilities and 17 are research and development. 
We have 15,000 employees who work in operations, engineering, 
research and development, and sales and marketing. In 2016 
alone we contributed more than $4.5 million to the communities 
that we live and worked with in those areas.
    Wherever possible, BASF seeks out to promote collaborations 
with K through 12 through graduate school. Perkins grants are 
an important tool that enhances the collaborative process and 
adds to student success.
    Important to talent acquisition is to seek the best 
candidates. But in addition to that, it starts much earlier. We 
want to entice the best candidates to seek us. And this gets 
back to some of the things I've already heard through what 
we've talked about today. It's talking to students and letting 
them know the true realities of these technical jobs and the 
misconceptions of the past, getting those things cleared away.
    We have a problem, which has already also been mentioned: 
11,000 baby boomers are turning 70 every single day as of 2016. 
That's one every 7.5 seconds. So it is happening, there's a 
delayed effect, but it is happening, and this will result in 
what we project in a 2 million job shortage in the 
manufacturing sector.
    Jobs in technology are among the most at risk, and that is 
why BASF has taken such an engaged approach that we call 
pipeline relationship management, where we are driving 
relationships, not just participation with our different 
education and industry partners and the workforce potentials 
that are out there. So this involves direct involvement in all 
stages of workforce development.
    The three basic pieces that we go after, our pillars, I 
guess you could call, is to, one, drive career and technical 
education awareness. This is our approach to increase the size 
of the pipeline. So the illustration that you see on the 
monitors now is basically what -- it's a graphic that displays 
the complexity of the workforce pipeline whenever we talk about 
it.
    I speak to so many people, and I get the vision from 
listening to what they say that they really see the pipeline as 
the singular pipe, that people go in one side, they come out 
with skills and hired at the end. Where in reality, these three 
pieces of career and technical education awareness, where we 
are increasing the size or the quantity of workforce potentials 
coming through the pipeline, working with our nested 
educational partners to increase the quality of those workforce 
potentials in that pipeline, and then working with our 
government and industrial partners to increase the productivity 
of that pipeline so that we can supply that projected 2 million 
job shortage.
    One of the problems is that 52 percent of students today 
when surveyed say they have no interest in manufacturing jobs. 
But that same data also tells us that the thing that makes them 
change their mind the most, the one that makes them decide what 
careers to pursue, is what they're most familiar with. And this 
drives our need to do more to familiarize students and 
workforce potentials, as well as retooling adults, with the 
true realities of technology and manufacturing today.
    Since 2010, more than 380,000 schoolchildren in grades K 
through 12 have participated in science education programs that 
BASF has put together. Through programs like BASF's Kids' Lab, 
we are helping grade school students build on their natural 
curiosity for how things work and to develop an interest in 
science. In programs like BASF's Science Academy and BASF's 
Tech Academy we seek to attract high school students to skilled 
career paths in science, technology, engineering, and 
mathematics.
    Retooling adults. We focus what we talk to them about to 
make sure that they understand the misconceptions of pay, that 
the average pay in manufacturing is actually $10,000 on average 
more per year than all other sectors combined. This lifestyle, 
the job availability projections, we hear all the time in the 
news and other places the endless counts of where people with 
4-year degrees can't find jobs. And at the same time, we have a 
skills gap. We have a projected absence in manufacturing. And 
these jobs actually pay more.
    In one school in the Houston area, of the multiple, many 
technical colleges in the areas, in one school alone there are 
currently 600 students that have a 4-year degree, can't find 
work, are going back to get an associate's degree or a 
certificate to become more employable, and it is just an 
example of the type of ideas that it takes to fix this problem.
    [The testimony of Mr. Johnson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
    Chairman Rokita. Thank you, Mr. Johnson.
    Ms. Goble, you are recognized for 5 minutes.

  TESTIMONY OF JANET GOBLE, DIRECTOR OF CAREER AND TECHNICAL 
               EDUCATION, CANYONS SCHOOL DISTRICT

    Ms. Goble. Good morning, Chairman Rokita, Ranking Member 
Polis, and distinguished members of the subcommittee. My name 
is Janet Goble, and I'm the director for career and technical 
education for Canyons School District in Sandy, Utah, which is 
a comprehensive school district serving approximately 35,000 
students. Additionally, I serve as the administration division 
vice president for the National Association for Career and 
Technical Education. I'm honored to be here today, and thank 
you for the invitation to share some of the wonderful 
opportunities students have in CTE.
    This morning I would like to highlight programs of study, 
business partnerships, and work-based learning opportunities, 
all of which are extremely beneficial for our students and are 
key tenets of the Carl B. Perkins Act.
    In Canyons School District students have the opportunity to 
participate in 35 different programs of study. These pathways 
start in 9th or 10th grade, and are followed by a succession of 
related courses that lead students into postsecondary education 
or careers. Students are able to earn industry credentials as 
juniors or seniors, and some leave high school with Utah 
licenses in areas like health care.
    With these credentials, students are prepared to be 
successful in their chosen pathway and are ready to hit the 
ground running in the workplace. Last year, our students earned 
an impressive 1,739 industry credentials.
    Many of our CTE students also plan to pursue higher 
education. This year, we are offering 44 CTE dual-enrollment 
courses with our higher education partners. Students in these 
courses have the opportunity to experience the rigor of 
college-level course work while saving time and money toward 
earning a college degree.
    Business partnerships are a key component of our program of 
study effort. For example, we have worked with major diesel 
companies across the State and other partners to develop the 
Utah Diesel Technician Pathway. In direct response to providing 
the workforce for the diesel industry, the pathway starts with 
dual-enrollment courses in high school, transform to college 
courses, and then allow students into enter the workforce with 
industry-grade skills.
    Along with donating many hours of job-shadow experiences 
and giving presentations about this viable career pathway, 
industry partners donated 12 diesel engines and stands to our 
district, valued at approximately $180,000, so students can 
learn on up-to-date equipment.
    We are also launching a new Medical Innovations Pathway 
driven by industry partners in the medical device manufacturing 
area. Students will take high school courses whose standards 
and objectives have been developed by industry to gain 
necessary skills for this career area. In addition, we are 
poised to participate in a new statewide building construction 
initiative and look forward to a similar partnership in the 
information technology area.
    Last October, in an effort to connect more students with 
industry, we were an integral part of our region's Pathways to 
Professions expo event where students and teachers were able to 
directly interface with businesses. In its maiden year, over 
8,500 students attended. There were even a few students who 
were hired on the spot.
    Opportunities like the expo that connect students with 
industry are critical. In our district, career exploration 
activities start with elementary school career days. College 
and Career Awareness, a required middle school course, exposes 
students to occupations across all the career clusters. Then in 
high school, examples of work-based learning activities cover a 
continuum from field trips, guest speakers, and lunch-and-
learns, to internships.
    All high school students participate in career fairs. Work-
based learning facilitators recruit professionals in their own 
community to represent dozens of possible careers. Having the 
support of 70-plus businesses is overwhelming and helps 
students learn about careers they might not even know exist.
    We also host an annual job-shadow event giving students a 
firsthand look at the workplace. A wide range of careers are 
represented, from engineers to graphic designers. This year, 89 
students and 41 businesses took part in the event. Some 
students realize that the career they shadow is not a good fit, 
which is a valuable experience and allows them time to 
reevaluate their career aspirations. And as for those students 
who have found their passion, this experience serves to cement 
their career decision and also gives them the opportunity to 
network with industry professionals.
    Another activity, our annual You Go Girls conference, with 
300 girls attending, aims to introduce middle school-aged girls 
to traditional occupations. It is very empowering for these 
young girls to hear from female role models and realize that 
they too can succeed in these careers. Since initiating this 
event, the percentage of students enrolled in high school non-
trad programs has risen from 26 percent to 53 percent.
    With our Perkins allocation, we fund work-based learning 
personnel and activities like these. Without this flexible 
funding, we would be unable to offer many of these valuable 
opportunities for our students.
    When students are engaged in more learning -- and certainly 
work-based learning and programs of study elevate that 
engagement -- they are more likely to stay in school. In 
Canyons district, 94 percent of CTE concentrators graduated 
from high school, while the overall district graduation rate is 
85 percent.
    With the reauthorization of the Carl D. Perkins Career and 
Technical Education Act, Congress has the opportunity to ensure 
that high-quality CTE programs, including work-based learning 
experiences, are available to all students.
    Again, thank you for the opportunity to provide testimony, 
and I look forward to your questions.
    [The testimony of Ms. Goble follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Chairman Rokita. Thank you, Ms. Goble.
    Ms. Lufkin, you're recognized for 5 minutes.

  TESTIMONY OF MIMI LUFKIN, CHIEF EXECUTIVE OFFICER, NATIONAL 
           ALLIANCE FOR PARTNERSHIPS IN EQUITY (NAPE)

    Ms. Lufkin. Good morning, and thank you, Chairman Rokita, 
Ranking Member Polis, and members of the subcommittee, as well 
as Chairwoman Foxx and Ranking Member Scott, for the 
opportunity to testify before you today.
    My name is Mimi Lufkin. I am the chief executive officer of 
the National Alliance for Partnerships in Equity. NAPE is a 
consortium of State and local education agencies supporting 
educators and carrying out the equity and special population 
provisions in the Perkins Act, as well as other education and 
workforce development legislation.
    Nationwide, some 13 million students are enrolled in CTE 
programs in secondary and postsecondary institutions. These 
programs are developing America's most valuable resource -- its 
people -- helping them gain the skills, technical knowledge, 
academic foundation, and real world experience they need to 
prepare for high-skill, high-demand, high-wage careers and keep 
America working in every sense of the word.
    CTE provides a positive return on investment for both 
students and the economy. Students who earn a CTE-related 
associate's degree or certificate can make an average of $9,000 
more per year, $20,000 more per year in health career fields. 
Students who engage in high-quality CTE have higher academic 
achievement and are more likely to graduate from high school. 
Attendance in a CTE program more than doubles the rate of 
college entrance for minority students.
    In Florida, CTE students taking dual-enrollment courses are 
22 percent more likely to enroll in postsecondary institutions 
as compared to their peers; and in Indiana, the community 
college system estimated savings of $14.1 million in tuition 
costs for students in dual-credit courses.
    CTE plays a critical role in creating a skilled workforce 
and a more diverse workforce. Since its reauthorization in 
1972, the Perkins Act, then the Vocational Education Act, has 
contained provisions supporting disadvantaged students and 
special populations, such as low-income students, students with 
disabilities, English-language learners, single parents, 
displaced homemakers, and students pursuing nontraditional 
careers, with access and success in CTE programs.
    Increasing access to high-quality CTE programs for every 
student, especially for unrepresented students, must be a 
priority in Federal policy. By 2024, employers need to fill 
more than 2 million middle-skilled jobs, those that require 
less than a baccalaureate degree, in information technology, 
manufacturing, transportation, distribution, and logistics -- 
all fields that are critical to the health of our Nation's 
economy and security.
    Only 11 percent of the workers in these fields are women. 
In the 2014-15 school year, women represented only 23 percent 
of IT concentrators, 12 percent of manufacturing concentrators, 
and 9 percent of transportation, distribution, and logistics 
concentrators in postsecondary CTE programs. In addition, men 
represented only 19 percent of concentrators in health career 
programs. These high-demand fields cannot afford to have half 
the population unavailable as potential members of their 
workforce pool.
    Under the provisions in the Perkins Act, NAPE has been 
working with educators at the State and local level across the 
country to move the needle on equity in CTE. For example, in 
Oregon, Douglas Education Service District increased the 
enrollment of girls in their welding program from 4 in the fall 
of 2015 to 38 in the spring of 2016.
    In California, Cordova High School increased female 
participation in their Project Lead the Way, Introduction to 
Engineering Design course from 4 to 14 girls in one semester. 
And in Ohio, Morgan Local Schools increased the enrollment of 
boys in health sciences to 50 percent of enrollment.
    States play a critical role in leading the implementation 
of innovative and high-quality CTE programs. The sharing of 
these best practices, providing technical assistance, 
collecting and sharing disaggregated accountability and 
participation data, ensuring civil rights enforcement, and 
holding States accountable are all critical roles the Federal 
Government plays.
    The CTE community has benefited from the initiatives that 
the U.S. Department of Education's Office of Career, Technical 
and Adult Education has lead, such as the Data Quality 
Institutes, the Peer Collaborative Resource Network, and the 
Advancing Equity in CTE project, to name a few.
    Our State members have also found the U.S. Department of 
Education's monitoring visits to be valuable in highlighting 
successes and uncovering opportunities for improvement, 
particularly in regards to ensuring the needs of special 
populations are being met.
    NAPE has benefitted from access to national data on 
accountability measure performance and CTE concentrator data 
disaggregated by gender, race, ethnicity, and special 
population status as we work with States and local education 
agencies to close participation and achievement gaps.
    It's critical that the Federal role be maintained in the 
Perkins Act to ensure that CTE continues to transform itself to 
meet the needs of the military, business, and a workforce 
competing in a global economy.
    Most importantly, for any of this to be possible requires 
that Perkins be fully funded. Since 1991, the Perkins basic 
State grant program has been reduced by 45 percent when 
adjusting for inflation. Now is the time to invest in America's 
educational system that creates its most valuable technical 
workforce.
    I want to congratulate the House Education and the 
Workforce Committee for its bipartisan passage of H.R. 5587, 
Strengthening Career and Technical Education for the 21st 
Century Act, in the 114th Congress, and look forward to working 
with you to ensure that the reauthorization of the Perkins Act 
in the 115th Congress builds on that good work.
    Our Nation needs every individual to be able to access 
high-quality CTE programs that lead to occupations with a 
family-sustaining wage, and our Nation's economy needs a 
diverse workforce to ensure we continue to be globally 
competitive and the world's leader in innovation. CTE can help 
make that a reality.
    Thank you for allowing me to testify. And I welcome any 
questions you may have.
    [The testimony of Ms. Lufkin follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Chairman Rokita. Thank you, Ms. Lufkin.
    Mr. Rowe, you're recognized for 5 minutes.

     TESTIMONY OF MIKE ROWE, CEO, MIKEROWEWORKS FOUNDATION

    Mr. Rowe. Thanks. Pleasure to be here. Appreciate the 
invitation.
    I'm not sure who the ladies are to my left, but I'd wish to 
acknowledge them.
    I don't know what you're doing, but it is fascinating to 
watch you do it. Honestly.
    Back in 2011, the Transportation and Commerce Committee 
invited me to share my thoughts on how to close America's 
widening skills gap. So I came to this building to talk about a 
critical part of the solution most often overlooked by 
politicians and educators. That would be the pressing need for 
better PR. I talked specifically about the stigmas and 
stereotypes that dissuade millions of people from exploring 
thousands of genuine opportunities in the skilled trades and 
the urgent need to challenge those myths and misconceptions.
    I pointed out that President Obama's promise of 3 million 
shovel-ready jobs sounded great, but I worried that filling 
those jobs would be challenging, especially in a country where 
fewer and fewer people aspired to pick up a shovel. I concluded 
by telling the committee that millions of open positions will 
remain unfilled until society changes its opinion on the 
definition of a good job. And then I invited those present to 
join me in a larger effort to that very thing.
    Shortly after my testimony to the committee, the skills gap 
closed, unemployment plummeted, and America got back to work.
    I'm kidding. Shortly after my testimony, the skills got 
widened, unemployment grew, and society continued to ignore 
thousands of opportunities that comprise a critical part of our 
workforce.
    So a few years later, I was invited back to the Hill to 
address the Natural Resources Committee and talk more about the 
causes of our widening skills gap. This time I focused on the 
unintended consequences of promoting a 4-year degree as the 
best path for the most people. There was a time when higher 
education needed a PR campaign and it got one. Unfortunately, 
the push for 4-year institutions came at the expense of 
community colleges, trade schools, and apprenticeship programs. 
Thus, every other educational opportunity began to feel 
subordinate.
    Also, the overall push for college coincided with an 
overall removal of vocational arts from high schools across the 
country, and the effects of that one-two punch laid the 
foundation not just for a widening skills gap, but for a level 
of student debt that's massive, premature, and completely 
unnecessary.
    I testified that tuition had soared in part because 
thousands of well-intended parents and guidance counselors were 
telling millions of kids, irrespective of their individual 
skills, that their best hope of success was the most expensive 
path available. The pressure on kids to borrow money was 
enormous, and so they did. Consequently, college tuition rose 
faster than the cost of food, energy, real estate, and health 
care.
    I also shared some personal stories with the committee that 
day, including a run-in with my own guidance counselor 35 years 
earlier. In 1980, Mr. Dunbar did everything in his power to 
dissuade me from attending a local community college. I was 
told outright that a 2-year school was beneath my potential.
    But a 4-year school would have been a huge mistake at that 
point in my life. I was 17 years old, I had no money, and I had 
no idea of what I wanted to do. The local community college 
offered hundreds of courses in my price range, so that's where 
I went, and that experience opened doors that I didn't even 
know existed. But that same experience is precisely what 
thousands of kids are discouraged from pursuing every single 
year.
    I told the committee then that this cookie-cutter approach 
to promoting higher education has led to thousands of graduates 
with expensive degrees from excellent schools, but with no 
prospects in their chosen field and no way to pay off their 
student loans.
    With the universal push for a 4-year degree more intense 
than ever, I argued then that our skills gap is the direct 
result of a mistaken belief that the best path for the most 
people is a 4-year degree, and I concluded with another appeal 
to aggressively confront the stigmas and stereotypes that 
discourage people from entering the trades, along with a 
challenge to guidance counselors to present a more balanced 
presentation of educational alternatives beyond high school.
    After my testimony in 2013, the skills gap closed, public 
education re-embraced the vocational arts, college tuition 
returned to affordable levels, and America finally got back to 
work.
    I'm kidding. Shortly after my testimony, the skills gap got 
even wider, tuition got even more expensive, and guidance 
counselors continued to use a career in the trades as a 
cautionary tale for those who resisted a 4-year degree. Now the 
situation has devolved even further, and my own mother has 
concluded that I am part of the problem. ``The more you 
testify,'' she said to me last night, ``the worse things get.''
    She may be right. Today, the skills gap is wider than it's 
ever been, 5.6 million jobs, according to the BLS. Vocational 
education is still missing from an overwhelming majority of 
high schools. Bills like the one before this committee still 
meet resistance in part because millions of Americans still 
view a career in the trades as some kind of vocational 
consolation prize.
    It's a bias as misguided as any other prejudice with us 
today and it poses a clear and present danger to our country's 
overall economic security. The student loan bubble is going to 
burst, as bubbles always do. Currently, the outstanding debt is 
$1.3 trillion. And yet we continue to lend money we don't have, 
to kids who can't pay it back, to teach them jobs that no 
longer exist, while ignoring all kinds of careers that actually 
do.
    In Springfield, Massachusetts, right now there are tens of 
thousands of manufacturing jobs available, yet the unemployment 
rate in Springfield is just as high as it is in the rest of the 
State. The mismatch between available skilled jobs and the 
unemployed local population is enormous. And it's happening 
everywhere. And so at the risk of making things worse, I have 
come here today to address the House Committee on Education and 
the Workforce. Alas, I have nothing new to tell you.
    [The testimony of Mr. Rowe follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Rokita. Thank you, Mr. Rowe. I can't let your 
celebrity bend the laws of the clock.
    Mr. Rowe. I appreciate that. Very well. The only thing in 
television that takes 5 minutes is 20.
    Chairman Rokita. And please let the record reflect that the 
ladies that the witness was referring to were our court 
reporters, who I think used to work at the NSA and have friends 
at the IRS.
    Mr. Rowe. I believe it.
    Chairman Rokita. You're going to be fine, Mr. Rowe. I think 
you'll be fine.
    I'm going to pass temporarily on my questioning and 
recognize the chairman of the full committee, Dr. Foxx, for 5 
minutes.
    Ms. Foxx. Thank you very much, Chairman Rokita. And I will 
add to what the chairman said about those wonderful ladies on 
your left. My understanding is that there are lots of job 
openings in that field and it pays very well.
    Mr. Johnson, BASF has a clearly demonstrated commitment to 
collaborating with educational institutions to address its 
workforce needs. I'm very familiar with what you do. Many 
smaller companies, however, lack the resources and expertise 
that someone like BASF has and makes it difficult for them to 
dedicate time and energy to maintain the partnerships with 
educational institutions. How do your educational partnerships 
help local small and medium-size employers address their own 
workplace needs?
    Mr. Johnson. Thank you very much for the question.
    For what we do with BASF, we look for our corporate 
partners, our industry partners to come along with us for the 
ride, because we cannot do it alone. The last thing I would 
ever want whenever I go to an advisory committee for a 
technical school to talk to them about the alignment between 
their learning outcomes and our KSAs, knowledge, skills and 
abilities that we need to hire, is for us to be the only ones 
at the table.
    We want our other industry partners there so that we come 
together with what we think the foundation should be so that 
there is a true handshake between our individual training 
programs inside industry where we can all take over. So we want 
them there with us, and not only do we want, but we actually 
seek them out to be sure that they are part of everything that 
we do when it comes to career and technical education 
awareness.
    Ms. Foxx. Thank you.
    And I want to say to all our witnesses and to Ranking 
Member Polis, I'm so grateful that you presented so many facts 
today on the positive impact of career and technical education, 
because I think it's so important that we get that information 
out there in the public to offset what Mr. Rowe talks about, 
and that is helping to change the image of career and technical 
education.
    And I can't let this hearing go by without reminding people 
that Harvard College began as a vocational school. And if you 
don't believe me, look it up.
    Ms. Goble, in your testimony you described how work-based 
learning elevates the student experience and leads to more 
engaged students. I agree that work-based learning is critical 
for exposing students to the skills they need to succeed in the 
workplace. But, unfortunately, too few students have the 
opportunity to participate in such programs.
    Tell me the challenges you've faced in expanding the number 
of work-based learning opportunities for students and how 
you've overcome these challenges.
    Ms. Goble. Thank you.
    Yes, it is a challenge to have every student participate in 
work-based learning activities, and part of that is driven by 
how many industry partnerships you have. In our district, we 
are continuing to get more and more industry partners, which 
helps facilitate that.
    Additionally, we've tried to overcome that challenge by 
having all school career fairs where every student in the high 
school participates and they have a chance to interface with 
industry. As I mentioned with our region Pathways to 
Professions expo event, that was a great opportunity for work-
based learning where students could actually talk with 
businesses, they were exchanging business cards, making 
arrangements for job shadows, and all sorts of other 
activities.
    But it is a challenge. In a perfect world, we would have 
every one of our students do a half-day job shadow in their 
high school experience. It's just not practical, we don't have 
that many business people.
    Ms. Foxx. Thank you very much. I know this is a challenge. 
I used to have interns in my office when I worked at 
Appalachian State University from the local high school who 
were in the business programs. So I know it's been going it on 
for a long time. We just need to broaden it.
    Mr. Rowe, I want to thank you for being the incredible 
advocate that you have been for hard work in the skilled 
trades. And I agree with you completely, we need to change the 
way people think about career and technical education. And I do 
think that we all have a responsibility to do that. All of us 
here, all of us in any part of education in particular.
    And I want to say that folks who have been around me for 
very long know that I really get on to people for their 
language as it relates to what we're talking about. And I do 
think getting rid of the word vocational education would help 
us a great deal, because I ask people when they are going to 
college: What do you want when you get out of college, 4-year 
college? Or now 6-year college. It takes 6 years to get a 
degree. They all say: A job. So all of education is vocational 
education, in my opinion. So we can work on changing our 
language.
    Thank you, Mr. Chairman. I apologize for going over.
    Chairman Rokita. I thank the chairwoman.
    Mr. Scott, you're recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    Ms. Lufkin, in the old days, vocational education was an 
alternative to an academic career. You'd learn a little trade, 
shop or something, get a job and keep it for 40 years. Now 
people are changing jobs frequently during their career and 
they need the education. So career and technical education 
should not be an alternative to academics, but an alternative 
setting where you can learn the same thing and not get off 
track.
    Does the present CTE legislation require the basic 
education to be achieved instead of an alternative to learning 
what you need to know?
    Ms. Lufkin. Thank you for the question, Chairman Scott.
    The current Perkins legislation has extremely strong 
provisions in it for the integration of academic and career and 
technical preparation. There includes an academic performance 
measure for secondary students. Technical skill attainment are 
also included in the performance accountability system.
    So the connection between academic preparation and 
technical skill preparation is really a critical component of 
current the Perkins legislation.
    Mr. Scott. Does that need to be improved to make sure that 
they get the academics or is that sufficient?
    Ms. Lufkin. Well, certainly I think any improvement in that 
area would help continue to make those connections. The 
legislation that was passed by this body last fall also 
continued that and strengthened that, I think, to some degree.
    I think that the issue here also which I think is 
critically important to look at is to ensure that States and 
local educational agencies are collecting disaggregated data by 
special population, status, race, ethnicity, and gender, to 
ensure that any academic achievement gaps are addressed in 
order to identify those equity gaps and close them. And the 
legislation that you passed last fall included a needs 
assessment language in it that was, I think, a really good 
provision that moves towards that.
    But certainly strengthening the connection between 
technical skill attainment and academic preparation. To 
eliminate those lines, as Congresswoman Foxx mentioned, there 
really should be no difference between academic preparation and 
technical skill attainment. Education is education, and the 
outcome we hope for that is for every student to come out of 
their experience with a career. Hopefully, not be in school for 
the rest of their life.
    Mr. Scott. Thank you. And how do you focus on those most 
likely to unemployed, to make sure money is targeted to where 
it most needs to go?
    Ms. Lufkin. So the way the funds are distributed now 
through an allocation process includes student population, as 
well as income levels as part of the formula, and that's an 
important component of this. The schools that have the highest 
need in terms of low-income students also potentially have the 
highest need for career and technical education to ensure 
students obtain the benefits of higher wage potential in their 
future and to become economically self-sufficient.
    Provisions in the legislation, I think, that are also 
critical include in addition to accountability measures that 
look at the performance of those students through disaggregated 
data, but also the kinds of incentives that exist through the 
required uses of funds section of the legislation that actually 
puts a priority on ensuring that low-income students and 
students who are likely to be unemployed also receive benefits.
    I think one of the biggest challenges in the current 
technical education system or in the education system more 
broadly is that students who are at risk of dropping out are 
often sent to alternative schools, and alternative schools 
don't always have the best access to career and technical 
education. And that is a real problem.
    When I was working as a teacher in California, we 
frequently saw students who were pregnant and parenting 
students, students who had behavioral issues in the regular 
high school, sent to an alternative school, and then were 
removed from having access to career and technical education.
    Actually, CTE is a dropout prevention. It is 1 of the 15 
strategies of the National Dropout Prevention Center has 
identified as a best practice, and it needs to be available to 
every student regardless of the systems that they are in.
    Mr. Scott. So when Ms. Goble suggested that high school 
students could get credit, save money, and save time to get 
credentials and reduce the dropout rate, was she right?
    Ms. Lufkin. Yes, absolutely.
    Mr. Scott. Thank you.
    Chairman Rokita. I thank the gentleman.
    Dr. Roe, you're recognized for 5 minutes.
    Mr. Roe. Thank you, Mr. Chairman. And it's good to have a 
relative on the panel today, a fellow Roe.
    Mr. Rowe. You're missing a W.
    Mr. Roe. Thank you.
    In the State of Tennessee we recognized this problem a few 
years ago, and hats off to our State legislature and the 
Governor who provides -- ours is the only State in the union, I 
think, that provides free community college and technical 
college for anyone.
    We also have a program -- Mr. Johnson brought up 11,000 
people, seniors, turning 70, each and every day. And we have 
also a program in the State called Tennessee Reconnect where 
you can bring people, let's say their job has gone to Mexico, 
China, wherever, and they need to retrain, they can be brought 
into our technical schools, 27 of them in the State. And we 
have one within 1 hour of every person in our State that can 
come back. I told the Governor: I don't know whether it will 
help you or me, but I think certainly in the future, in the 
next 20, 30 years, it will be tremendously beneficial to our 
State.
    Just to give you a couple of statistics, even during the 
height of the Great Recession, between 80 and 90 percent of the 
people who trained in the technical schools were able to be 
employed in the skill that they had learned.
    Mr. Rowe pointed out that his guidance counselor gave him 
some advice. My guidance counselor in high school advised me to 
not go to college, to take up a trade. I did take up a trade, 
it was called doctoring, but I did go on to medical school. So 
I had a trade, it was operating on people.
    Other people had a different trade, and one of the things I 
found out in my practice was that we needed those skills to 
operate the practice. So we trained people in our office, 
nursing assistants, LPNs, on and on. I'm not talking about the 
degree people. But you can't operate in the healthcare sector 
without these folks or many sectors.
    The average beginning wage of a welder that leaves one of 
our technical schools from my local community is $35,000. And I 
talked to a young man not long ago and his guidance counselor. 
This young man just a couple or 3 years out of technical school 
was making a six-figured income in welding.
    Eighty to 90 percent of our students get job placement in 
their field immediately, as opposed to what Mr. Johnson and 
others of you all have said about you graduate from college and 
you can't find a job.
    So I've become a huge career leader for CTE. I think it is 
a road. And the question I have for any of you on the panel, 
and maybe I'll start with Mr. Rowe, is how do we convince young 
people it's a great thing do? I mean, I have a lot of status 
with what I did. But there is status in making a good living 
for your family also.
    So how do we get this drilled down -- I think you guys are 
right -- down into the fifth, sixth, seventh, eighth grade 
level to tell kids, ``Hey, there are a lot of things you can 
do''?
    So I'll start with you, Mr. Rowe.
    Mr. Rowe. Well, if you want to make America great again, 
you've got to make work cool again. You've got to make it 
aspirational. It can't be this thing that's sitting there for a 
whole bunch of people who failed on the aspirational road. It 
can't be that vocational consolation prize. You just have to 
change the image of the opportunity.
    And, you know, there are so many ways you can look at the 
language and see how we got to where we are. But, you know, the 
word vocational is an interesting thing to kind of riff on, 
because it didn't used to be vocational education or even shop, 
it used to be the vocational arts. So what we did was we took 
the art out of the vocation and all we left was some version of 
drudgery.
    And you could do that to your career or mine or really 
anybody's. If you take the artistry out of it, you're just not 
left with much that's visually appealing from the outsiders.
    So we just have to be aware of how we present these 
opportunities to kids. And, obviously, on the front line of 
that are the parents of the kids and the guidance counselors.
    So the language matters, the opportunity matters, and the 
challenge matters, too, you know. My foundation focuses on 
these jobs, but we do it through the lens of work ethic. You 
know, we challenge people: You've got to make a case for 
yourself if you're going to get access to our little pile of 
money, and then you need to enthusiastically advance. So it is 
a slightly different way of coming at it and a long way of 
saying you've just got to make it cool somehow.
    Mr. Roe. Well, one of things I hear, and maybe -- we don't 
have a lot of time left -- but I go to a lot of manufacturers 
in my district, and I hear over and over again: We can teach 
you how to do these things. If you can present with the soft 
skills, will you show up at 8 o'clock, will you be there at 5 
o'clock, and you pass a drug test? I hear it all the time. And 
I think those are the things we have got to teach young people, 
that work is important, you also have to have these other 
skills to be able to be successful at work.
    Mr. Chairman, I yield back. Thank you.
    Chairman Rokita. Thank, Doctor.
    Mr. Garrett, you're recognized for 5 minutes.
    Mr. Garrett. Thank you, Mr. Chairman and members of the 
panel. It's a real -- speaking with the chair of the full 
committee --
    Chairman Rokita. Would the gentleman turn his mike on?
    Mr. Garrett. Sometimes you've got to find your passion and 
sometimes you walk headlong into it. But this CTE topic today 
is so important. And I'm really heartened to hear someone far 
smarter than myself, Mike Rowe, sort of articulate some of the 
things that I have been saying for years. And I want to pound 
on these because I think they bear repeating.
    I've referred to an educational-industrial complex to get 
to the heart of it and to bring home to people just how bad the 
problem I think has become. We've created a paradigm wherein we 
define success for young people as a 4-year degree from a 
liberal arts school and a lot on the corner in a subdivision, 
and that's wonderful for everybody for whom it's wonderful. 
But, you know, I think 9 percent of my high school went on to 
4-year colleges, and the guy who I graduated with who fixes my 
car can do things that I could never begin to do. And he, by 
the way, has a son who's on a full ride to a graduate degree in 
molecular biology at the University of Notre Dame. There's no 
dishonor in an honorable career. I would contend that every 
American is entitled to two things: number one, an opportunity, 
and number two, the right to define success for themselves so 
long as long as it doesn't impact the liberty of others. And we 
have painted into a corner the skilled laborer that built this 
Nation, and it's tragic. So we have to break that paradigm. And 
you've done more to do that in the last 6 or 7 years than I may 
ever do, and I thank you.
    Mr. Rowe. You're welcome.
    Mr. Garrett. As it relates to CTE, I know we can do it 
because I've seen it done here in this country. I recently was 
in Germany and visited the Bayer Corporation and watched where 
they had some 200-plus young people straight out of high school 
who were learning to do things like be lab chemists, like care 
for animals, physical security, data analysts who came straight 
out into these fields because the private sector decided that 
they were going to create the employees that they needed to be 
successful. BASF, I think, deserves some credit for doing that 
same sort of thing. But we can do more of that.
    Having said that, as we look to what the paradigm moving 
forward should be, I would argue that the best arbiter of the 
needs of the working world are the local communities. In my 
former job in the Virginia Senate we saw the community 
colleges, PVCC, CVCC, Southside Virginia Community College, 
partner with entities like BWX and Areva, with UVA Health 
System, and say, ``Where are the needs?'' and then start 
creating a workforce for those needs.
    So we can do this. But sometimes, I think, when we try to 
dictate it from on high at a Federal level, we just miss the 
target because we don't know exactly what we ought to be aiming 
at as well as the State and local folks do.
    Having said that, I will turn right back around and commend 
the Old Dominion Job Corps, with whom I work directly. And it 
was an eye-opening experience when I walked in there a couple 
years ago and I said, ``Where are you having your best luck 
placing young people?'' And these are young people from 
challenging backgrounds, socioeconomic distress, tough 
scenarios, single-parent households. And they said, ``Well, we 
have 16 kids in the machining program, 15 of them are placed. 
The 16th has a mother who's sick with cancer. He's going to go 
home and spend some time with her and then pick from a series 
of job options.''
    I said, ``What's the average starting hourly?'' They were 
in the mid-20s, and the master machinist may very well at one 
point, hopefully, live across the street from the doctor and 
the lawyer and the college professor. But nobody is telling our 
young people this.
    So to the extent that we can make an impact by continuing 
to do what a lot of you -- and particularly you, Mr. Rowe -- 
have done and saying, ``Hey, guys, this is an option, there is 
no shame in it, in fact there's honor in it,'' we have a duty 
to do that.
    So I apologize for having more a soliloquy than a question-
and-answer session, but to the extent that I could lend my 
voice to the small but hopefully growing chorus, this is a no-
brainer. The question then becomes how we best do it.
    And I would argue we need to listen to the localities and 
the States about what their needs are in their specific 
geographical area, and then let employers like BASF and BWX 
drive the need train. Because what I don't want to do is watch 
the money be sent from the locality to the Federal level and 
then have the administrative cost of handling money take 40 
cents out of every dollar and then plow it back down to only 
create more young people who have skills but not in the area 
where the demand exists in their communities.
    So having said that, I'd yield back the balance of my time, 
but thank you immensely, and say that I really look forward to 
hopefully continuing to work in this area. There is a message 
that's more important really than anything else, and that, I 
think, Mr. Rowe hit on, and that is there is no shame in any of 
this. An honest career in a skilled field is as honorable as 
anything anybody on this dais will do.
    Thank you.
    Chairman Rokita. The gentleman yields.
    I recognize myself for 5 minutes.
    I want to thank the witnesses again for your testimony. I 
continue to learn a lot.
    Mr. Rowe, I'd like to start with you, picking up on Mr. 
Garrett's theme. I mean, we're all in this room together. We 
all want the same thing. We've heard from your testimony 
specifically that the skills gap continues to widen, because of 
you mostly but maybe some other things.
    So what advice do you have for us? I mean, if I understand 
your background correctly, it's in theater, it's in some other 
things, and it's in experience in this very part of our 
economy. What do you have for us in terms of efforts to change 
the public's perception specifically? Any to-do list or 
anything like that?
    Mr. Rowe. Yeah. I mean, it's that thousand-points-of-light 
thing, on the one hand.
    I was at a gala two nights ago my foundation sponsored 
called Project JumpStart up in Baltimore. Basically, to your 
point, you know, this is a foundation that evolved because the 
local builders simply couldn't find people who were enthused 
about learning a trade. So they went into the inner city, and 
they also focused on nonviolent offenders. They set up a pre-
apprenticeship program 10 years ago. Eight-hundred people have 
matriculated. The stick rate is 75 percent. No other similar 
effort in workforce development has yielded that kind of 
result.
    So we have to find those opportunities where they exist, 
and then we have to shine a really bright light on them, and we 
have to tell stories of the guy I met two nights ago. Toemore 
Knight was his name. He was making $10 a day 8 years ago. Now 
he's a master electrician, 52 bucks an hour. He should be on a 
poster, you know?
    In the 1950s, our country had this terrible, dysfunctional 
relationship with litter. You know, way before the green thing, 
there was ``Keep America Beautiful.'' That was a campaign that 
actually started with some government help, some NGOs, some 
concerned citizens, and some big businesses. And they got 
together -- you'll remember the weeping Indian on the side of 
the highway. That was an iconic image. And it took about a 
generation and a half for the needle to move, but it did. And a 
lot of money went into a media campaign. And in a lot of 
different ways, that consortium challenged our relationship 
with litter.
    We can do the same thing with work, but it will take time. 
That's what I meant when I said we've got to make it cool 
again. We need images, we need portrayals, and we need to 
challenge the stigmas and stereotypes where we find them. 
Right? Not every plumber in the world is 300 pounds with his 
pants halfway down. Even though that's what it looks like on 
TV, that's not the way it is.
    So we need to have fun with it, call it out when we see a 
misrepresentation, and provide better optics. There are a 
thousand ways to do it.
    Chairman Rokita. Thank you, Mr. Rowe. I appreciate your 
leadership again.
    And I guess for the rest of you three, let me set this up, 
taking Mr. Rowe's comments and saying, you know, if we're going 
to have a free republic, if we're going to continue to have 
one, we need engaged citizens. I need critical thinkers. We 
need all these things.
    And one of my fears -- and maybe some others share it, and 
it's apparently unfounded, but I want you to address it -- is 
that we can't have automatons. And I remember back when I was 
in high school -- I'm a bit of a gearhead. I still restore 
cars. I break as much as I fix, and that kind of thing, but 
it's something I'm very interested in. It's good therapy, Mr. 
Rowe, for being in Congress. I can actually try to fix things.
    And what I was pleased about was my mother insisted that I 
go on to college, where I learned more critical thinking 
skills, where I learned about Locke and Hobbes and all these 
other people who had big ideas. And I use that today still.
    For the one that goes to career and technical education as 
a 17-, 15-, 18-year-old but that might be the entrepreneur that 
hasn't been exposed to that yet, that might be the next 
President or the leader, how do we ensure that those skills are 
preserved while we're teaching them such a technical education?
    Ms. Goble?
    Ms. Goble. One valuable way that we do in our district -- 
and this is prevalent across the Nation as well -- is through 
our career and technical student organizations. When you talk 
about those foundational skills, critical thinking, 
presentations, soft skills, those types of things that are so 
critical in the workplace, having students participate in those 
organizations such as FBLA, FFA, and other things really helps 
those students gain those leadership skills. And those are the 
types of things that last throughout their entire life.
    It also addresses what Mr. Rowe was bringing up about it 
being fun and cool to be participating in CTE. When students 
are engaged in those CTSOs, those student organizations, 
they're having a good time, and they're learning some valuable 
skills they will keep a lifetime.
    Chairman Rokita. Thank you.
    Mr. Johnson, can I give you the last 10 seconds on my 
question? Thank you.
    I'm sorry, Ms. Lufkin. I'm not going to get to you.
    Mr. Johnson. Sure. No problem.
    One of the best ways that we've seen to do it is to be sure 
that the different courses, the certificate programs versus the 
associate degrees, are stackable skills so that we can focus on 
the technical education part of it, what they need to know to 
perform on the job, but then, as they complete that first 
portion of that training or that technical education, they're 
able to move on to the critical-skills types of learning as 
well.
    And whether they do all together, if they go ahead and get 
their first job through that certificate, then they can 
continue on with those critical thinking skills.
    Chairman Rokita. Do you feel you have engaged citizens at 
BASF working as your employees?
    Mr. Johnson. Absolutely.
    Chairman Rokita. Thank you.
    Ms. Bonamici, you're recognized for 5 minutes.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    When I'm home in Oregon, I spend as much time as I can 
visiting schools and meeting with students and educators and 
parents. And every community I visit, there's universal support 
for Perkins CTE and the high-quality CTE programs.
    I visit programs that are serving diverse students, 
challenging them academically, preparing them for high-skilled, 
in-demand jobs. One of my favorite visits, although there have 
been many, was the girls-only welding class at Sherwood High 
School. I also visited a great auto tech program recently at 
Beaverton High School.
    And I know that it takes strong partnerships to develop 
successful CTE programs that serve all students, especially 
those in underrepresented communities that are aligned with 
local labor markets.
    In Oregon, the Portland Area Career Technical Education 
Consortium, PACTEC, is an example. In my district, Portland 
Community College manages partnerships with school districts 
and industry groups and develops those strong articulation 
agreements. And this means that high school students pursuing 
programs of study can earn college credit and transition to the 
community college and gain skills that are used by industry 
partners.
    A number of the school districts in PACTEC are relatively 
small and are situated in rural areas, so forming that 
consortium and partnering with community colleges help these 
districts. But, still, delivering the high-quality CTE programs 
in rural areas often requires overcoming financial and 
geographic obstacles.
    I do want to mention, too, that Yamhill Carlton High School 
in my district has a viticulture program that teaches students 
how to work in the wine industry, which is a big part of the 
economy in that rural community. I think it's the only high 
school with a vineyard.
    So, Ms. Lufkin, can you discuss what more the Federal 
Government can do to help rural schools in particular develop 
high-quality CTE programs and advance equity in CTE?
    Ms. Lufkin. Thank you.
    So I'm a former ag teacher -- I should admit that openly 
here -- and taught in a very small rural high school actually 
in northern California. That experience has taught me quite a 
bit about how to access resources in a community that's 
disengaged from an urban center. And I, of course, was doing 
that at a time when we didn't have the technology that we have 
available today.
    So in the work that we're doing -- and in your State, 
actually, we have a significant initiative going on with the 
Oregon Department of Education through the Perkins Act that is 
supporting increasing access and success of underrepresented 
students in nontraditional career and technical education 
programs across your State. And that has been incentivized 
basically by the accountability provisions in the Perkins Act 
and also by the other provisions around the State leadership 
funds that encourage support for nontraditional students.
    We've been working with a significant number of rural 
schools. You mentioned Roseburg -- there's a school in Roseburg 
that has a very large class of young women who are in their 
welding program. And that happened as a result of this 
initiative.
    And it's really the Federal policy that's in the Perkins 
Act that has driven this. It creates an incentive. It creates a 
sense of need. Whether it's the carrot or a stick approach in 
this case, what I love is when I hear principals say, I had no 
idea this was an issue for us, and when they discover it, that 
they actually can effect it.
    Ms. Bonamici. I want to follow up. You mentioned 
accountability, and I really agree with the need for 
accountability in any CTE reauthorization to make sure we're 
really increasing participation in CTE, especially with groups 
historically underrepresented.
    So can you talk about what this committee can do to give 
States and districts the tools they need to use data? 
Oftentimes, school districts don't have the capacity to make 
use of disaggregated data. So what can we do to help to make 
sure that they're continually improving their programs and that 
they adopt research-backed strategies for advancing equity in 
CTE?
    Ms. Lufkin. Well, actually, there are a few provisions that 
you included in the bill that you passed last fall that do 
that.
    So one is the requirement for disaggregated data to begin 
with. Actually, you might be surprised, but when we go and work 
with schools, they have really the capacity to deal with that 
data in a much better way than I think we assume they do.
    Ms. Bonamici. That's reassuring.
    Ms. Lufkin. Yes. Yeah. Database analysis of performance 
gaps has become common-day practice, at least in career and 
technical education for sure.
    Ms. Bonamici. In my few remaining seconds, last Congress I 
worked with Representative Stefanik to include language in the 
CTE bill that would authorize Federal funds for integrating 
arts and design skills into CTE programs. We're an innovation 
economy.
    Can you discuss the benefits for students and local 
economies of teaching arts and design skills in CTE programs of 
study?
    Ms. Lufkin. Absolutely. Those skills are critical for 
innovation. And what we know is that students who have the 
ability to think creatively can be more innovative. There has 
been, actually, research studies that show that kind of 
practice in technical settings, the combination of design and 
critical thinking skills, creates more innovative solutions.
    Ms. Bonamici. Thank you.
    And as I yield back, I invite all my colleagues to join the 
bipartisan STEAM Caucus.
    Thank you, Mr. Chairman.
    Chairman Rokita. We love bipartisanship.
    The gentlewoman's time has expired.
    Mr. Thompson, you're recognized for 5 minutes.
    Mr. Thompson. Mr. Chairman, thank you. Thank you so much 
for having this hearing.
    I want to thank all the witnesses, your organizations, your 
companies, your personal work, everything you've done in terms 
of being champions for career and technical education training. 
As cochair of the Career and Technical Education Caucus, I 
mean, I share your passion. I know how important that is.
    Mr. Rowe, good to see you, as a brother Eagle Scout. The 
last time we met -- the first time we met, actually, and the 
last time we met was at the National Jamboree in West Virginia. 
Hopefully I'll see you there later this year. Hopefully you'll 
be coming back, and I'm looking forward to visiting.
    My first question is for you, Mike. In your testimony, you 
mentioned Project JumpStart, a very successful job-training 
program which really does sound like music to my ears and those 
of my colleagues, I'm sure.
    Now, you mentioned its success in urban areas. Do you or 
have you seen this model work in rural areas?
    Mr. Rowe. No, I haven't. In fact, I haven't seen it 
firsthand work anywhere but Baltimore, which is why I'm behind 
it. I grew up there, but I also think that, as a format or a 
template, it's low-hanging fruit. It's something that could 
easily be identified. It's not really on point to the bill I 
know we're contemplating, but it does check a few of the boxes, 
you know.
    I would suggest an even better organization to make people 
more aware of is SkillsUSA. You mentioned the Boy Scouts; you 
mentioned Future Farmers of America. You know, I've worked 
pretty closely with both of those groups. But nobody hits it as 
squarely on the head as SkillsUSA -- 300,000 kids basically 
competing every year in national competitions within the CTE 
world. And it's phenomenal to watch their passion, and it's 
amazing to watch them grow. And it's criminal that more people 
don't know about them. I mean, literally, you fill a room with 
1,000 people and 950 have never, ever heard of them.
    But they're the best example I have of a private 
organization that really stepped up to kind of fill in that 
smoldering crater we created when we took the vocational arts 
out of high school. There are many, many others, but, in terms 
of PR, we've got to hear more about JumpStart and we've got to 
hear more about SkillsUSA.
    Mr. Thompson. I mean, you raised a very important issue I 
think we're all aware of, is a lack of -- well, we're aware of, 
but it's the lack of awareness of the incredible opportunities. 
And some of that can be achieved through raising awareness of 
SkillsUSA and other great programs that we have in place. 
Because I think today we still deal with a stigma, you know, 
among students and, more specifically, among parents. And I 
know that with the legislation last year that we'll be 
reintroducing here hopefully next month, part of that was 
pushing down an awareness to the middle school, earlier, for 
kids to be able to have that information.
    Ms. Lufkin, first of all, thank you for your service as a 
former agriculture educator. Agriculture certainly is one of 
the -- well, it is the largest industry in Pennsylvania. One 
out of seven jobs come from agriculture. And the connection 
between strengthening career and technical education and 
improving the agriculture industry is undeniable. I love the 
STEAM Caucus, but I have a double A; it's arts and agriculture.
    Your testimony made it clear that students who engage in 
CTE during their time in school tend to have access to a higher 
quality of life. How can a reauthorization of the Perkins Act 
help give more students from all backgrounds this promising 
opportunity to succeed?
    Ms. Lufkin. That's a big question.
    So I think access to high-quality career and technical 
education is sort of the key component of this. And that is 
ensuring that every career and technical education program 
that's funded with Federal funds is of that nature.
    So I know that the Association for Career and Technical 
Education -- we have been involved in this -- are in the 
process of creating criteria around what that particularly 
means. And so certainly the Federal legislation could support 
the inclusion of what ``high quality'' stands for. So 
articulated credits, integrated curriculum; equity is a 
component of that; access to work-based learning; dual 
enrollments -- all of those and more could certainly be 
incentivized in the legislation.
    I think also ensuring that special populations have access, 
more than just nondiscriminatory language, but actually 
proactive strategies for engaging special population students 
in career and technical education, are also other ways that the 
legislation could be supportive of the question of access to 
CTE.
    Mr. Thompson. Thank you.
    Thank you, Chairman.
    Chairman Rokita. I thank the gentleman.
    I now recognize Mr. Polis for 5 minutes.
    Mr. Polis. Thank you.
    Ms. Lufkin, I want to thank you for being here again today.
    You know, in Denver, the Career Education Center Early 
College Magnet School helps prepare students for the workforce 
by providing career and technical education through dual and 
concurrent enrollment. I am very proud to say that about 10,000 
students in Colorado participated in career and technical 
education concurrent enrollment courses, which is about 40 
percent of all concurrent enrollment students. So it's become a 
very prevalent part of our concurrent enrollment system.
    As you indicated in your testimony, concurrent enrollment 
is a proven method for helping students have access to career 
and technical education. I wanted you to talk about the role of 
concurrent enrollment and particularly how it can support 
first-generation students, nontraditional college-goers, and 
other disadvantaged youth and the role that plays in career and 
technical education?
    Ms. Lufkin. Thank you for the question. And I think that 
there are lots of ways that dual enrollment actually does that.
    First of all, access to college for a first-generation 
student may contain within it a variety of barriers, whether 
they're financial, whether it's parental support. It could even 
be an issue of transportation, location, especially when we're 
talking about rural schools. And the availability of 
postsecondary credit while obtaining a high school diploma is a 
significant incentive for particularly low-income students to 
access college in a way that doesn't do what Mr. Rowe was 
talking about, creating this huge college debt.
    First-generation students also may not have the same 
support systems in place for students to be able to access 
college. So for students to have success in a dual enrollment 
system, for example, can provide them with their own internal 
incentives to continue. And the research shows that actually is 
the case.
    Mr. Polis. Mrs. Goble, do you have experience with dual 
concurrent enrollment programs in Utah? And do you want to 
speak to their relevance to career and technical education?
    Ms. Goble. Absolutely. You know, we offer a lot of dual 
enrollment, partnering with Salt Lake Community College. As Ms. 
Lufkin mentioned, it is a great opportunity for particularly 
underrepresented students to be able to do that. In Utah, it's 
only $5 a credit, which is a huge bonus for them. To be able to 
do college courses --
    Mr. Polis. By the way, what is the normal cost for a credit 
outside of that?
    Ms. Goble. It's about $150.
    Mr. Polis. It's a big difference.
    Ms. Goble. Yeah, a huge difference. And to be able to have 
students participate in college-level coursework within the 
safe confines of a regular classroom that they're familiar with 
bridges that gap, and they feel like they have the internal ``I 
can do it,'' and they do.
    Mr. Polis. The other topic I wanted to touch on is the 
value of apprenticeship programs in career and technical 
education. Colorado recently launched CareerWise, a public-
private partnership that has a goal of training 20,000 students 
for need-based, high-paying jobs through apprenticeships. 
Colorado's program is an example, but it's something we need to 
do more of. Many unions have been leading the way on 
apprenticeship programs for decades.
    I wanted to go to Mr. Rowe and Mr. Johnson -- we'll go to 
Mr. Rowe first -- to briefly talk about the role of 
apprenticeships, how they support and prepare students and how 
they can be an effective model for career and technical 
education.
    Mr. Rowe. I just can't imagine a more important paradigm or 
model, you know, in any trade, in any vocation, the business of 
showing up and putting your hands on the thing, whether you're 
a doctor or a mechanic.
    Mr. Polis. And do you think it makes a difference that many 
of the apprentices are actually getting paid? And they probably 
need to get paid during that period. Does that make a 
difference in participation as well?
    Mr. Rowe. Sure, it does. You know, I mean, and you can see 
it right now in so many private companies too. Caterpillar has 
a program called Think Big, I believe. And a lot of companies 
have a different version of it, but it's a transitional way to 
get a kid right from high school right into the work and reward 
them along the way.
    With the Project JumpStart thing we were mentioning, you 
know, they use stipends, you know, instead of a paycheck. But 
the interesting thing is with JumpStart is there's a 
consequence. Somebody was talking about soft skills. You show 
up late, they take the stipend. Shirt's not tucked in, cell 
phone goes off -- so it's a great way, the apprenticeship 
model, to, again, reward the kind behavior you want to 
encourage.
    Mr. Polis. And, Mr. Johnson, can you address why it's 
important to include apprenticeships in Perkins CTE 
reauthorization?
    Mr. Johnson. Apprenticeships provide such a connection with 
the job before they finish their actual education that they get 
a realistic job preview the entire time that they're getting 
the education. It not only increases their direct applied skill 
because it's the actual work that they'll be doing, but it 
conveys even more knowledge to them that they can talk to their 
friends about. And it becomes really an awareness that pushes 
career and technical education awareness in the forefront in 
that way.
    Mr. Polis. Thank you.
    And I yield back.
    Chairman Rokita. I thank the gentleman.
    The gentleman from Indiana is recognized for 5 minutes.
    Mr. Messer. Thank you, Mr. Chairman. I appreciate this 
important hearing.
    You know, we've talked about it before in this committee, 
but it is important we start to rethink many of these programs. 
You know, some of our higher education programs are some of the 
most successful Federal programs ever invented, but many of 
them are structured on a what I called four-homecomings-and-a-
backpack kind of approach, where we think of an 18-year-old kid 
grabbing her backpack, running off to school. Some kids do 
that, but, of course, in today's world where careers can change 
many times throughout your lifetime, that doesn't fit 
everybody's needs. And, as others have discussed, we need to 
get folks prepared for a job in the economy. That's where we 
really give them value. And 6 in 10, as many as 6 in 10, 
manufacturing jobs go unfulfilled because we don't have folks 
that are trained and prepared for that job.
    I wanted to direct my first question to Mr. Johnson.
    And we've heard and I've heard in my district from many 
employers that discuss the challenges they face in finding 
skilled employees. How do these workforce shortages affect 
companies?
    Mr. Johnson. Well, I've attended a number of conferences 
recently where we talk about that very thing. We talk about 
this projected skills gap, this projected gap of employees that 
are going to be available for even in the manufacturing sector.
    And, sadly, some of the organizations are now beginning to 
plan on the possibility that that's actually going to happen. 
It's almost -- they're not trying to -- they're still trying to 
fix the problem, but they're so convinced that it's an 
inevitability that they're planning on that not happening.
    So we basically must continue to push that idea that this 
is a job that is worth people having.
    Mr. Messer. And I guess what you're saying there, Mr. 
Johnson, is that they may have to decide to mechanize or make 
other decisions as a company because they're worried that they 
don't have the workforce to meet their needs, or move somewhere 
else, or --
    Mr. Johnson. Absolutely. I mean, we have to remember that 
part of the biggest problem I think that we have is that -- and 
we've touched on it a number of times -- is the message that 
we're delivering.
    Organizations all around have what they call a value 
proposition. They talk about, this is why it's a great place to 
come and work for our organization. Technical sectors, 
manufacturing sectors have to have what I refer to as a 
manufacturing value proposition: This is why this sector of 
employment is a great place to be. This is the type of 
messaging that, whenever I go and talk to students or retooling 
adults, that any of us on the panel or any of you go, we should 
be saying the same things, they should be hearing the same 
things, so that we have a branded message.
    We talk about we don't say the things all the time, but we 
don't talk about what specifically are the things that we need 
to say. An example of that is, when I see students' eyes open 
the most is whenever we show them a chart that we created that 
shows the people that are graduating high school at the same 
time, and they choose four or five different careers. The 
careers we have are welder, process operator, lawyer, teacher. 
And we show where they go in debt to begin with, basically 
spending money on school one way or another, and then they 
begin making money, which is their average income.
    When we show the chart and we can actually show the 
students and retooling adults that it actually takes a lawyer 
in the Houston area 20 years to catch up with a welder or a 
process operator because of the length of time they're still in 
school while these welders and process operators are making 
money --
    Mr. Messer. Bottom line is --
    Mr. Johnson. That's an example of the type of information 
that we have to have a branded way of talking.
    Mr. Messer. Bottom line, many of these jobs are good-paying 
jobs. We also in our district are working on getting kids to 
come in high school into manufacturing facilities so they can 
see what they look like, right, and that they can see that 
these can be very pleasant places to work.
    Ms. Goble, in my limited time, I wanted to follow up on 
some of Mr. Polis' comments and ask, are these dual enrollment 
opportunities accessible to students from low-income 
backgrounds? And are there programs to help students afford 
these programs if they're unable to cover the costs?
    Ms. Goble. Absolutely. Students who are unable to pay for 
the cost -- the college still does require the $5 per credit 
hour. However, the principals of our high schools have the 
available funds to cover that for any student, because we're 
dedicated to make sure that they have those same opportunities.
    Mr. Messer. Yeah.
    I think, with my limited time, I'll just yield back the 
rest after just thanking you all for all your work that you do 
every day to make sure that people in America have an 
opportunity and, again, thank the chairman for this important 
hearing.
    Chairman Rokita. I thank the gentleman.
    The gentleman yields.
    I would now recognize for 5 minutes Mr. Krishnamoorthi, a 
member of the full committee, a guest of the subcommittee 
today.
    Welcome, sir.
    Mr. Krishnamoorthi. Thank you so much. I'm honored to be 
part of your subcommittee for today. And I think this is such a 
great topic. It's one that people on both sides of the aisle 
can really get together on and make some progress on.
    It's my humble belief that, at some point in the history of 
the United States, we're going to go from a compulsory 
education system of K through 12 to K through 12-plus. And that 
``plus'' is yet to be defined, but I think it's going to have a 
heavy career and technical education component.
    And here is my, kind of, comment and question, which is 
that I believe that the ultimate indicator of success of these 
career and technical educations is not, kind of, coming out 
with a piece of paper that's a certificate but, rather, an 
offer letter. Are they going to have a job? That's what my 
constituents keep asking me, you know. How do we get jobs for 
our young people?
    And so I believe very much in pushing decision making in 
the CTE program down to local levels as much as possible, 
because people at the local levels know what the local demands 
are in terms of skills and they know what the skill shortages 
are.
    However -- this is my question -- with regard to the 
accountability measures, there's been some questioning of is 
there enough accountability for whether the programs that are 
funded through the, you know, Perkins CTE are strong enough. 
And one of the accountability measures I'd like to ask about 
is, you know, what do you folks think about, you know, 
requiring that the students who graduate from these CTE 
programs have a job, or that it's a significant measure of the 
success of those programs?
    Mr. Rowe, would you like to comment on that?
    Mr. Rowe. Well, I can't speak probably as eloquently to the 
measures in the bill as the other folks, but I can tell you, in 
my foundation, it's critical.
    You know, there's this notion, I think, that the existence 
of opportunity is the balm for unemployment, for instance. And, 
of course, the skills gap tells us that that's not the case at 
all. There are 5.6 million opportunities, right?
    So back to the enthusiasm. We can't just assume, in my view 
-- I can't just say, ``Hey, look at what's here,'' and then get 
out of the way and watch the people stampede toward it, right? 
So the way we approach it is we challenge them, you know. We 
say, look, in our little world, you need to comply with some 
things that might not be in this bill. You need to write an 
essay. You need to submit a video. You need to make a 
persuasive case for yourself. You need to submit references. 
You need to demonstrate work ethic in some way that we can 
demonstrably reward.
    And when we find those kids -- well, we've got about 600 
who have gone through so far. And they work. And they're using 
the opportunity for what it is, which is a tool to get to the 
next level.
    I would also say very, very briefly that it's so tempting 
to talk about these jobs as destinations, but what we've seen 
through our foundation and certainly in my show, so many small 
businesses wind up forming around people who begin their 
careers by mastering a trade. That has to be a part of the 
proposition as well, in my view.
    Mr. Krishnamoorthi. I'm a former small-businessman. I 
totally agree that I think that the folks coming out of these 
CTE programs could be our future entrepreneurs. And I hope that 
they are. But I kind of go back to this issue of, I'm all for 
CTE, I'm passionate about it, but I just want to make sure that 
the dollars that go to these postsecondary institutions, 
especially, that are going to be doing the CTE are ending up 
putting our children and students into jobs. Job placement is 
so critical, I think, right now.
    Mrs. Goble?
    Ms. Goble. Yeah. With our business partnerships that I 
referenced earlier, one of the main tenets of that is the 
students who go through those partnerships that are driven by 
industry actually have preferential treatment in the hiring and 
interview process. So that is one thing that we're really 
striving for in every one of those partnerships.
    Mr. Krishnamoorthi. Okay. Thank you very much.
    I think Mr. Johnson wanted to say something.
    Mr. Johnson. So I think there is a way to put real metrics 
behind it and assure this accountability is there.
    An example is, within BASF, for us to determine which ones 
that we will work on the most, we do hiring projections. You 
know, what are the jobs that are going to be needed the most in 
the next 1, 5, and 10 years? The ones that have the highest 
need for that community is where we spend our time and effort.
    That very same thing can be done with your funding 
allocations by basically looking at what are the jobs that 
really have projected openings and that we don't know how we're 
going to fill -- should probably have some level of funding 
that's increased versus jobs that we know there's unemployed 
people all over because there's no jobs for it.
    So some way to balance that funding toward jobs we know 
that America needs and are short on is the best way to do that 
metric system.
    Chairman Rokita. I thank the gentleman.
    Mr. Krishnamoorthi. Thank you.
    Chairman Rokita. The gentleman's time has expired.
    I would tell the gentleman that I think you're right on 
track, and the work that we've done last year and that should 
be in the bill this year is a publishing of some sort of job 
tracker, both at the State level and at the Department of 
Education.
    So I'm glad to know that we're going to agree on everything 
in this committee. That's a great start.
    The ranking member is recognized for a closing.
    Mr. Polis. Thank you, Mr. Chairman.
    There's a report that studied various data sets to identify 
high-growth and high-wage occupations in Tennessee. And the 
information and message that they used can be replicated in 
other States to help States determine if their CTE programs are 
aligned with the local labor market needs. And I ask for 
unanimous consent that this research report be entered in the 
record.
    Chairman Rokita. Without objection.
    [The information follows:]
    [Extensive material was submitted by Mr. Polis. The 
submission for the record is in the committee archive https://
www.cna.org/cna--files/pdf/CIM-2015-U-011930.pdf for this 
hearing.]
    Mr. Polis. I want to thank our witnesses.
    I think a couple takeaways from today's hearing or running 
theme is that career and technical education programs need to 
be relevant and reflective of the actual needs of the labor 
market. We all know the economy today is not what it was 10 
years ago, is not what it was 50 years ago. And sometimes, 
frankly, our school districts and other stakeholders are slow 
to adapt. Federal investments should ensure that we have that 
flexibility at the local level and encourage that flexibility 
to meet real workforce needs.
    Career and technical education programs should also invest 
in all students and diverse students and students from 
underserved communities and have gender parity in the quality 
of the jobs that students are being prepared for.
    As Ms. Lufkin shared, CTE can be a ladder that lifts 
students into the middle class. CTE is an opportunity to 
reengage disconnected youth, like the work that I cited at the 
Colorado Early College School in Denver, where all students 
graduate with an associate's degree from high school.
    In order for career and technical education to be 
effective, it has to be adequately funded. We've suffered under 
sequestration and budget cuts to Perkins, and, frankly, that's 
hurt the ability of CTE programs to serve students. Career and 
technical education is one of the best ways to ensure we have a 
qualified, relevant workforce and our country stays 
competitive. And, frankly, at the end of the day, we need to 
invest in that.
    I want to refer back to Chairman Rokita's opening remarks. 
Chairman Rokita spoke about our effort to reauthorize CTE last 
Congress. As he said, this committee produced a bipartisan 
bill. It passed on the House floor. I'm optimistic that any 
reauthorization will also be bipartisan, pass overwhelmingly.
    If we have good ideas both sides of the aisle that improve 
and build upon our mark from last session, I think Members 
should be encouraged to bring those forward and create a work 
product that we as legislators can be proud of and 
fundamentally will help meet the needs of students across the 
country in preparing them for jobs to support their families or 
for college.
    Thank you again for holding today's hearing, and I yield 
back.
    Chairman Rokita. I thank the gentleman.
    And I thank the members who joined us here today.
    I thank the witnesses. Again, I continue to learn a lot on 
this subject and look forward to working with you as leaders in 
this community to get this job done, the job being the mountain 
we are going to climb again this Congress, in terms of getting 
this bill passed and signed into law. And we're very optimistic 
up here about those probabilities, but we're also very sober in 
terms of the hard work that's ahead of us. So I hope you can 
join us -- I'm motioning to the witnesses -- I hope you can 
join us in that effort, and I know you will.
    Career and technical education provides increased 
opportunity for all students so that, as Mr. Garrett said in 
his remarks, Americans can define their own success. And I 
think that's the key to it.
    Congress and this committee especially will work to change 
the policies and the perceptions of CTE. And, Mr. Rowe, I look 
forward to -- we look forward to working with you in that 
regard. And, again, thank you for your leadership.
    It seems to me that the actual partnerships with employers 
are the ones that seem to provide the most fruit, not putting 
any others aside. But I'm going to take that as one of my to-
dos, to make sure that concept is promulgated as much as 
possible from a leadership perspective but also in the language 
of the bill.
    With regard to the money, of course that's always the issue 
around here. And we are $20 trillion in debt. I completely 
agree with Ranking Member Polis that this is a priority and 
this is one of the things that could lead to not only 
individual success but our success as Americans going forward. 
So I see this as a high priority.
    But what Mr. Polis didn't mention, and I'll simply mention 
it for him and I and everyone else up here: If that is the 
priority, if that is one of the higher priorities, there has to 
be a lesser priority, or else we're trading problems. We're 
giving your future workers, the beneficiaries of your 
foundation and everyone that you work for, a different problem 
-- that is, a higher debt. So budgets are about priorities, 
appropriations are about priorities. If this is a high 
priority, like I just agreed to, we also have a duty to decide 
what isn't working, what's less of a priority, if we're going 
to put more money to this. So I simply say that as a reminder 
not only to me but to the whole committee as we work forward on 
this issue.
    And, with that, again, I want to thank the witnesses. I 
want to thank everyone for their leadership going forward as we 
climb this mountain, as I said.
    And seeing no further business before the committee, I put 
the committee in adjournment.
    [Additional submission by Mr. Barletta follow:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
     
    [Additional submission by Mr. Johnson follow:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
     
    [Additional submission by Mr. Roe follow:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
     
    [Additional submissions by Chairman Rokita follow:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
  
    
    [Additional submission by Mr. Thompson follow:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    [Whereupon, at 11:37 a.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
